HHS/OIG, Audit - "Review of High-Dollar Part B Claims Processed by Cahaba
Government Benefits Administrators Carrier No. 00510 for the Period January 1, 2004,
Through December 31, 2006," (A-04-08-00041)
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Review of High-Dollar Part B
Claims Processed by Cahaba Government Benefits Administrators Carrier No. 00510
for the Period January 1, 2004, Through December 31, 2006," (A-04-08-00041)
June 20, 2008
Complete
Text of Report is available in PDF format (195 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
During calendar years 20042006, Cahaba Government Benefit
Administrators Carrier No. 00510 (the contractor) overpaid providers in Alabama
$121,000.  Generally, the contractor made the overpayments because the providers
incorrectly billed excessive units of service.  In addition, the Medicare claims
processing systems did not have sufficient edits in place during calendar years
20042006 to detect and prevent payments for these types of erroneous claims.
We recommend that the contractor
recover the identified overpayments.  The contractor agreed with
our recommendations.